No. 19-1225

 

IN THE

Supreme Court of the United States

PAUL HUNT,

Petitioner,
v.

BOARD OF REGENTS OF THE UNIVERSITY SYSTEM OF
NEW MExico et al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

MOTION FOR LEAVE TO FILE BRIEF
AND BRIEF OF AMICUS CURIAE OF THE
JOSEPH L. BRECHNER CENTER FOR FREEDOM OF
INFORMATION, STUDENT PRESS LAW CENTER,
THE ELECTRONIC FRONTIER FOUNDATION
AND THE NATIONAL COALITION AGAINST
CENSORSHIP, FILED IN SUPPORT OF
APPELLANT, SEEKING REVERSAL

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,825 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 348 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
